Department of Health and Human Services 

             OFFICE OF 

        INSPECTOR GENERAL 





   CHILDREN’S USE OF HEALTH 

    CARE SERVICES WHILE IN 

    FOSTER CARE: NEW YORK





                     Inspector General

                       June 2005
                     OEI-02-00-00362
               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees State Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops compliance program guidances, renders advisory opinions on OIG sanctions to
the health care community, and issues fraud alerts and other industry guidance.
∆   E X E C U T I V E                            S U M M A R Y


                  OBJECTIVE
                  To determine whether children in New York foster care have Medicaid
                  coverage and are receiving health care services.


                  BACKGROUND
                  It is estimated that 532,000 children are in foster care nationwide, and
                  many of them are reportedly in poor health. Compared with children
                  from the same socioeconomic background, children in foster care suffer
                  much higher rates of serious emotional and behavioral problems,
                  chronic physical disabilities, birth defects, developmental delays, and
                  educational difficulties.

                  Almost all children in foster care are eligible for Medicaid services and
                  for Medicaid’s Early and Periodic Screening, Diagnosis, and Treatment
                  (EPSDT) program. Among other things, the EPSDT requires each State
                  to make preventive health care and follow-up services available to
                  Medicaid-eligible individuals under the age of 21.

                  This inspection focuses on the State of New York and is part of a larger
                  body of work in which eight States are being evaluated. The analysis is
                  based on a review of Medicaid claims and case file records relating to
                  50 children in New York foster care over a 26-month period, as well as
                  interviews with foster care agency staff and caregivers.


                  FINDINGS
                  All children in the sample we reviewed have Medicaid coverage and
                  are receiving health care services. All 50 children have a Medicaid
                  identification number and all had at least 1 Medicaid claim between
                  September 2000 and October 2002.

                  One reason supporting this finding is that 43 of the 50 sample children
                  benefit from New York’s Medicaid payment system called the per diem.
                  In this system, participating agencies receive periodic (usually monthly)
                  fixed payments per child from Medicaid to cover a variety of physician
                  and dental services for the children in the agency’s care. This system
                  provides flexibility in that it allows foster care agencies to employ
                  health care providers onsite or to contract with them.




OEI-02-00-00362   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   FOSTER CARE: NEW YORK   i
E X E C U T I V E              S U             M M A R Y


                   Many caregivers are not informed about the Medicaid program and
                   the EPSDT, and they often do not receive their children’s medical
                   histories. Many caregivers say they are not taught how to navigate the
                   Medicaid system. For example, 32 say they did not receive an
                   explanation as to which services are covered by Medicaid and 23 say
                   they did not get a schedule of doctor appointments children need.
                   Twenty-one caregivers have not heard of the EPSDT program. Twenty-
                   four say they have heard of it but only one of them reports that her child
                   receives services under the program.

                   Further, 20 caregivers say they did not receive any of their children’s
                   medical histories. Eight more say they did receive some history, but not
                   all of the important information. Three of these caregivers believe that
                   their children’s health care was adversely affected because the
                   information was missing.


                   RECOMMENDATIONS
                   The children in our sample are receiving needed services, especially
                   preventive care. We believe that New York’s Medicaid payment system
                   likely facilitates the children’s access to health care services.
                   Nevertheless, we recommend that the Administration for Children and
                   Families (ACF) and the Centers for Medicare & Medicaid Services
                   (CMS) work with the New York State Office of Children and Family
                   Services and Office of Medicaid Management to further promote access
                   to services by addressing potential obstacles, including caregivers’
                   limited knowledge about the EPSDT and how to navigate the Medicaid
                   system. We also recommend that ACF help the State ensure that the
                   most complete medical histories are shared with the children’s
                   caregivers.
                   Agency Comments
                   We received comments from ACF and CMS. The full text of the
                   comments is included in Appendix D. ACF reports that it is working
                   with New York on our recommendation to promote the importance of
                   obtaining medical histories for children in foster care. ACF notes that a
                   Program Improvement Plan was developed in response to the New York
                   Child and Family Service Review conducted by ACF. This plan contains
                   action steps that address the gathering of medical information and the
                   physical and mental health needs of children served by New York’s child
                   welfare system. ACF says that it monitors progress of the plan with
                   quarterly reports.

 OEI-02-00-00362   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   FOSTER CARE: NEW YORK   ii
E X E C U T I V E                  S U           M M A R Y


                  CMS concurs with the recommendation that CMS work with New York
                  to further promote access to services. CMS states that regional staff
                  will work with the New York Office of Children and Family Services and
                  Office of Medicaid Management to ensure that New York’s foster care
                  staff is educated on Medicaid and the EPSDT program services. CMS
                  also mentions that it is working with ACF to develop interagency multi-
                  state meetings. According to CMS, these meetings will focus on access
                  to Medicaid services for children in foster care and facilitate
                  communication between State Medicaid directors and Child Welfare
                  directors.




OEI-02-00-00362   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   FOSTER CARE: NEW YORK   iii
∆   T A B L E           O F             C O N T E N T S



         EXECUTIVE SUMMARY ......................................... i



         INTRODUCTION ................................................ 1




         FINDINGS ....................................................... 8

           All sampled children have Medicaid coverage and access to services . . . 8 


            Caregivers are not informed about the Medicaid system and often 

             do not receive their children’s medical information. . . . . . . . . . . . . . . . 11 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 

           Appendix A: Services Inside and Outside the Per Diem Rate . . . . . . . . 14 


           Appendix B: Children’s Demographic and Health Characteristics . . . . 15 


           Appendix C: Comparison of Children in Sample to Population. . . . . . . 17 


           Appendix D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

∆   I N T R O D U C T I O N


                  OBJECTIVE
                  To determine whether children in New York foster care have Medicaid
                  coverage and are receiving health care services.


                  BACKGROUND
                  It is estimated that 532,000 children are in foster care nationwide,1 and
                  many of them are reportedly in poor health. Compared with children
                  from the same socioeconomic background, children in foster care suffer
                  much higher rates of serious emotional and behavioral problems,
                  chronic physical disabilities, birth defects, developmental delays, and
                  educational difficulties.2 According to the New York State Judicial
                  Commission on Justice for Children, half of all children in the child
                  welfare system nationwide suffer from developmental delays or mental
                  health problems that are serious enough to need clinical intervention.3
                  In addition to the needs they share with other children, such as
                  immunizations, routine well-child examinations, and treatment of
                  childhood diseases, children in foster care clearly have a greater need
                  for specialized health care services.

                  Despite their need, it appears that many children in foster care are not
                  receiving adequate health care. It is estimated that 60 percent of all
                  children in out-of-home care have moderate to severe mental health
                  problems, yet less than one-third of those children receive mental health
                  services.4 A Government Accountability Office (GAO) report issued in
                  May 1995, entitled “Health Needs of Many Young Children are
                  Unknown and Unmet,” found that a significant proportion of young
                  children in foster care did not receive critical health-related services in
                  the three locations studied (Los Angeles County, New York City, and




                  1 Retrieved on June 23, 2004, from:
                      http://www.acf.hhs.gov/programs/cb/dis/afcars/publications/afcars.htm.
                  2   Health Care of Young Children in Foster Care, Committee on Early Childhood, Adoption
                      and Dependent Care, American Academy of Pediatrics, Policy Statement, Volume 109,
                      Number 3, March 2002, pp. 536-541.
                  3 Pamphlet on “Ensuring the Healthy Development of Foster Care Children,” New York

                      State Permanent Judicial Commission on Justice for Children, 1999, page 4.
                  4 Fact Sheet: The Health of Children in Out-Of-Home Care, Child Welfare League of

                      America, retrieved March 14, 2003, from:
                      http://www.cwla.org/programs/health/healthcarecwfact.htm.



OEI-02-00-00362   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   FOSTER CARE: NEW YORK   1
I N T R O D 
U C T             I O N


                   Philadelphia County).5 In fact, GAO estimated that only 1 percent of
                   these children received Early and Periodic Screening, Diagnostic, and
                   Treatment (EPSDT) services.
                   Medicaid for Children in Foster Care
                   The Medicaid program provides health care to specified groups of needy
                   individuals. It is administered by the Centers for Medicare & Medicaid
                   Services (CMS) and jointly funded by the Federal and State
                   governments. Within broad national guidelines, each State establishes
                   its own Medicaid eligibility standards; determines the type, amount,
                   duration, and scope of services; sets the rate of payment for services;
                   and administers its own State Medicaid program.6
                   Almost all children in foster care are eligible for Medicaid services.
                   Pursuant to section 1902 (a)(10)(A)(i)(I) of the Social Security Act (the
                   Act), children in foster care covered under Title IV-E of the Act are
                   eligible for Medicaid. Children in foster care who are not eligible for
                   Title IV-E services usually qualify for Medicaid through other eligibility
                   categories set forth by each State. In fiscal year 2000, Medicaid
                   payments for children in foster care nationwide were over $3.3 billion.7
                   Early and Periodic Screening, Diagnosis, and Treatment
                   The EPSDT is a Federal entitlement to comprehensive medical services
                   for Medicaid-eligible children under the age of 21. While States have
                   the flexibility to design their own Medicaid programs, the EPSDT
                   program requires each State to provide coverage for comprehensive and
                   preventive child health services to Medicaid-eligible individuals under
                   the age of 21. In general, the EPSDT treatment services include
                   periodic screening, vision, dental, and hearing services and all other
                   services available under the Medicaid program. Treatment or medical
                   care must be provided for any physical or mental conditions discovered
                   by the screening services.



                   5   Healthy Needs of Many Young Children are Unknown and Unmet, General Accounting
                       Office, GAO/HEHS-95-114, 1995, pp. 2 and 5.
                   6 Retrieved from CMS Web site on March 14, 2003:
                       http://www.cms.hhs.gov/medicaid/mover.asp.
                   7   Medicaid Expenditures for Federal Fiscal Year 2000, By Type of Service for Maintenance
                       Assistance Status and Basis of Eligibility All States; Medicaid Statistical Information
                       System Report for Federal fiscal year 2000. National Total for Foster Care children,
                       page 3, retrieved from CMS Web site on March 13, 2003:
                       http://www.cms.gov/medicaid/msis/00total.pdf.




 OEI-02-00-00362   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   FOSTER CARE: NEW YORK   2
I N T R O D 
U C T           I O N


                   Under EPSDT, States must set distinct periodicity schedules for 

                   screening, dental, vision, and hearing services. Services must be 

                   provided at intervals that meet reasonable standards of medical 

                   practice. States must consult with recognized medical organizations 

                   involved in child health care, such as the American Academy of 

                   Pediatrics, in developing reasonable standards.8

                   New York
                   Child Welfare. The New York State Office of Children and Family
                   Services (OCFS) in the Department of Family Assistance is responsible
                   for the State’s children in foster care. At the time of this inspection,
                   New York had approximately 57,000 children in foster care. New York’s
                   foster care system is decentralized so child welfare programs are State-
                   supervised and county-administered. New York State is divided into
                   58 local social services districts. One of these districts includes the five
                   boroughs of New York City. Almost one-third of the State’s children in
                   foster care reside in New York City. Outside of New York City, each
                   district corresponds to 1 of the 57 counties that make up the remainder
                   of the State.

                   In each district, children are placed either under the direct care of the
                   local district or under the care of a contracted foster care agency,
                   commonly referred to as a voluntary agency. These agencies provide
                   services under contract with a local district. Nearly 80 percent of the
                   children in foster care are under the care of voluntary agencies
                   statewide. OCFS is responsible for licensing, inspecting, supervising,
                   and monitoring them. In 2002, there were 153 such foster care agencies
                   in New York.

                   Pursuant to OCFS, each child in foster care has a case planner and a
                   case manager. The case planner has the primary responsibility of
                   providing, arranging, coordinating, and evaluating the provision of
                   services to the child and family. When a child is placed with a
                   voluntary agency, the case planner is a member of the agency’s staff.
                   Case managers, on the other hand, are employees of the local social
                   services district. They are responsible for authorizing the provision of
                   services, approving the client eligibility determination, and approving
                   service plans. When the child is placed in the care of the local district,
                   the case manager is also the case planner.

                   8 Retrieved from CMS Web site March 28, 2003: http://www.cms.gov/medicaid/epsdt/.




 OEI-02-00-00362   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   FOSTER CARE: NEW YORK   3
I N T R O D 
U C T           I O N


                   Medicaid Program. The New York State Department of Health is
                   responsible for the State’s Medicaid program. Within this Department,
                   the Office of Medicaid Management manages the Medicaid program,
                   which is administered by local social services office.

                   As in all States, children in New York foster care who meet Title IV-E
                   requirements are eligible for Medicaid coverage. For children in New
                   York foster care who do not meet IV-E requirements, Medicaid
                   eligibility is determined by State standards and based, in part, on the
                   child’s income. Medicaid must be authorized for 12-month periods in all
                   foster care cases that are Medicaid eligible.9
                   In fiscal year 2001, Medicaid expenditures for children in New York 

                   foster care were approximately $395 million. 

                   Managed Care. Children placed in the care of voluntary agencies are
                   excluded from participating in managed care.10 Children under direct
                   care, however, may be eligible for enrollment in a Medicaid managed
                   care plan at the option of each local district. Districts may opt not to
                   enroll children in managed care for a number of reasons, such as
                   distance from providers or the special medical needs of the child. Of the
                   58 social service districts, 5 enroll children in managed care. The New
                   York City district is not one of the five.
                   New York’s Medicaid Payment System. Voluntary agencies have the option
                   of receiving a Medicaid payment per child, commonly referred to as the
                   per diem, to pay for their children’s health care or having the children
                   receive care through Medicaid fee-for-service.

                   These payments cover many physician and dental services. They also
                   cover most prescription and non-prescription drugs, home health,
                   medical supplies, eye care, and mental health/behavioral health
                   services. Agencies may have medical professionals on staff or contract
                   with local providers to care for the children. In 2002, 96 of the
                   153 voluntary agencies in New York State chose to receive the per diem.

                   Agencies use the per diem to pay health care providers directly for 

                   rendered services.11 See Appendix A for services included and not 

                   included in the per diem rate. If a child needs services not included




                   9 NYS OCFS Eligibility Manual for Child Welfare Programs, June 2003, pp.4-4, 4-5. 

                   10New York Social Services Law, Title 11, section 364-j 3(d)(xi). 

                   11 NYS OCFS Eligibility Manual for Child Welfare Programs, June 2003, p. 4-2. 





 OEI-02-00-00362   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   FOSTER CARE: NEW YORK   4
I N T R O D 
U C T           I O N


                   under the payment system, the child may go to a Medicaid provider. 

                   The provider would then bill Medicaid directly for these services. 


                   The per diem rate paid to the agency varies by agency and by the types
                   of programs within the agency. The rate is based on the agency’s
                   historic costs of providing medical care, subject to certain ceilings. Each
                   agency receiving a per diem is required to submit a medical services
                   expenditure distribution sheet to the Department of Health annually. It
                   is a summary of all medical costs incurred by the foster care agency.
                   The annual cost is the basis for determining rates for subsequent years.
                   Per diem payments totaled $221,000 for the children in our sample from
                   September 2000 through October 2002. In general, per diem payments
                   were made to agencies monthly for each child in their care. The average
                   per diem payment for the children in the sample was $263 per month.

                   New York has formed a workgroup to look at standards of care, cost of
                   care, and what services should and should not be included in the per
                   diem rate. The workgroup includes representatives from OCFS, the
                   Division of Budget, the Office of Mental Health, the Office of Alcohol
                   and Substance Abuse Services, the Department of Health, Office of
                   Mental Retardation and Developmental Disabilities, and the Council on
                   Children and Families.


                   METHODOLOGY
                   This inspection is based on information gathered from multiple sources:
                   a review of Medicaid claims and case file records relating to 50 children
                   in New York foster care over a 26-month period; a review of Federal and
                   State laws, regulations, and policies; and interviews with Federal and
                   State agency officials, foster care agency staff, and caregivers.
                   Reasons for State Selection
                   This inspection focuses on the State of New York and is part of a larger
                   body of work in which eight States are being evaluated. New York was
                   selected because of its size, decentralized child welfare system, and
                   geographic location.
                   Sample
                   The 50 children in the sample were randomly selected from a population
                   of 41,232 children in continuous foster care placement for at least
                   6 months prior to September 30, 2002. See Appendixes B and C for a
                   more detailed description of children in the sample and a comparison of
                   the children in the sample to the population.


 OEI-02-00-00362   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   FOSTER CARE: NEW YORK   5
I N T R O D        U C T      I O N


                    It should be noted that, because of our sample size, we do not project our
                    estimates to the universe of all children in New York foster care. Our
                    purpose was to gain an understanding of how children in foster care
                    receive medical care.
                    Review of Medicaid Claims Data, Case File Information, and Federal and
                    State Laws and Policies
                    Medicaid Claims Data. New York’s Office of Medicaid Management
                    provided a Medicaid claims history of 26 months for each of the
                    50 children in our sample. The data include claims with service dates
                    from September 2000 through October 2002. None of the children were
                    enrolled in managed care at the time of the sample selection, so the
                    Medicaid histories contain no managed care encounter data. All claims
                    discussed in this report are fee-for-service.

                    In reviewing the Medicaid claims, we paid particular attention to the
                    types of service, claims coded as EPSDT, dates of service, and settings,
                    where available. Medicaid claims data were organized into broad
                    categories for analysis, such as preventive care, office visits, dental, and
                    mental health. We excluded claims that were not health care related,
                    such as those for transportation. We determined the periods of time the
                    child was in foster care based on information given by the OCFS and the
                    child’s foster care agency. Claims for services provided when the child
                    was not in foster care were excluded.
                    Case File Information. Forty-five of the fifty sampled children were placed
                    in the care of voluntary agencies. These children, unlike the five in the
                    direct care of a local district, could receive medical services paid by the
                    per diem. Services provided under the per diem, along with any other
                    services the child receives, are recorded in the child’s case file by the
                    voluntary agency. The children in direct care receive health care
                    services through Medicaid fee-for-service. We did not collect their case
                    files because the services they received are evident from their Medicaid
                    claims histories.

                    We collected the medical portion of the case file from September 2000
                    through October 2002 for each of the 45 children placed in the care of a
                    voluntary agency. The case files did not distinguish between Medicaid
                    services and those that are paid for by the State or other non-Medicaid
                    sources, such as Head Start. Therefore, our analysis includes services
                    that may not have been paid by Medicaid.

                    In the case file review, just as in the Medicaid claims review, we
                    excluded services that were not health care related or were provided

 OEI-02-00-00362    CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   FOSTER CARE: NEW YORK   6
I N T R O D        U C T      I O N


                    while the child was not in foster care. For each child, the health care
                    services found in the case files were compared to the child’s Medicaid
                    claims history. To prevent counting a service more than once, if the
                    same service was found in the claims and the case file, that service was
                    counted in the claims data and not counted in the case file review data.
                    Law and Policy Reviews. We reviewed Federal and State laws,
                    regulations, and policies pertaining to the provision of health care to
                    children in foster care.
                    Interviews
                    Foster Care Agency Interviews. We conducted interviews, either in person
                    or by telephone, with foster care agency staff responsible for each of the
                    50 children in our sample. We interviewed each child’s case planner,
                    who, as previously noted, has the primary responsibility of providing,
                    arranging, coordinating, and evaluating the provision of services to the
                    child and family. In some interviews with voluntary agencies, a member
                    of the agency’s health care staff joined the case planner. We use the
                    term “agency” to refer to the case planner and health care staff
                    representing the child.

                    The interviews focused on agency staff ’s understanding of Medicaid and
                    experiences accessing health care services for the child in our sample.
                    We also discussed any barriers to health care faced by the child and by
                    children in foster care in general.
                    Caregiver Interviews. We interviewed the caregivers for 49 of the children
                    in our sample. We were unable to reach one caregiver. We use the term
                    “caregiver” to refer to a foster parent or residential facility staff member
                    who is responsible for the child. Forty of the children were in family
                    care and nine were in residential care. Like the caseworker interviews,
                    our interviews with caregivers focused on training, Medicaid, and
                    procuring health care services for the child in our sample.
                    Federal and State Agency Officials. We held several meetings, both in
                    person and by telephone, with officials from CMS, the Administration
                    for Children and Families (ACF), New York’s OCFS, and New York’s
                    Office of Medicaid Management. Our discussions covered a wide
                    spectrum of information to help us understand how the State’s foster
                    care and Medicaid systems are organized and administered.

                    This inspection was conducted in accordance with the Quality
                    Standards for Inspections issued by the President’s Council on Integrity
                    and Efficiency.


 OEI-02-00-00362    CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   FOSTER CARE: NEW YORK   7
 ∆
      F I N D I N G S



      All children in the sample have Medicaid            All the children in the sample have
coverage and are receiving health care services           Medicaid coverage. All 50 children
                                                          have a Medicaid identification
                       number, and all had at least 1 Medicaid claim filed for a service
                       provided between September 2000 and October 2002.
                       Forty-seven children in the sample received preventive care services.
                       The EPSDT program requires each State to provide coverage for
                       comprehensive and preventive child health services. Forty-seven of the
                       fifty sampled children received at least one preventive health care
                       service during the study period, according to the Medicaid claims and
                       the case file documentation. The number of preventive care services per
                       child ranged from 1 to 15.

                       The sampled children received a variety of services in addition to
                       preventive care. Forty-two children received office visit services. These
                       services typically included treatment of an illness or injury. Forty-two
                       children received diagnostic services, such as lab tests. Thirty-six
                       children received all three of these services: preventive, office, and
                       diagnostic. The number of total health care services per child ranged
                       from 5 to 786 over the study period. Table 1 (shown on next page) lists
                       the services received by the children in the sample.




     OEI-02-00-00362   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   FOSTER CARE: NEW YORK   8
F   I N D I N G                 S             




                       T a b le 1 : N u m b e r a n d T y p e o f H e a lth C a re S e rv ic e s



                                                                                                   N u m b e r o f C h ild re n W ith a t
                          S e rv ic e T y p e                                                            L e a s t O n e S e rv ic e      T o ta l N u m b e r o f S e rv ic e s
                          P re ve n t i v e                                                                                                                47               164

                          O ff ic e V is it                                                                                                                42               201

                          L a b W o rk /D i a g n o s t ic                                                                                                 42               216

                          D e n ta l                                                                                                                       36               153

                          M e n ta l H e a lth                                                                                                             36             1 ,8 3 5

                          H e a r i n g /S p e e c h                                                                                                       32               422

                          V i s io n                                                                                                                       30                 74

                          Im m u n iza t i o n s                                                                                                           27               112

                          E m e rg e n c y S e rv i c e s                                                                                                  19                 82

                          O th e r                                                                                                                          9                 25

                          P h ys i c a l / O c c u p a t i o n a l T h e ra p y                                                                             7               756

                          C ase M anagem ent                                                                                                                6                 30

                          H o s p ita l S e rv ic e s                                                                                                       5                 15

                          S u p p lie s                                                                                                                     3                   8
                      S o u rc e : O ffic e o f E v a lu a tio n a n d In sp e c tio n s M e d ic a id C la im s D a ta a n d C a s e F ile R e v ie w .




                              Caregivers and foster care agencies report their children have access to the
                              health care they seek.
                              Forty-six of forty-nine caregivers and 46 of 50 agencies interviewed
                              report that the children in foster care receive the health care services
                              they seek. Caregivers also say that finding providers for the children in
                              the sample is not difficult. Forty-five caregivers report no problems
                              finding doctors, dentists, or any other type of health care professionals.
                              Of the four caregivers who report problems, two say finding a dentist
                              who accepts Medicaid is difficult, one reports problems finding a dentist
                              and a doctor, and the fourth reports problems finding a therapist.

                              In total, caregivers and agencies describe five instances where they
                              could not eventually get the care they sought for their children. In two
                              of these instances, a provider was available but the child refused
                              treatment. In another instance, the provider’s waiting list was
                              reportedly too long. The remaining instances involve disagreement over
                              treatment plans or difficulty getting prescription drugs.



    OEI-02-00-00362           CHILDREN’S USE               OF   H E A LT H C A R E S E R V I C E S W H I L E         IN   FOSTER CARE: NEW YORK                       9
F   I N D I N G 
S


                      Caregivers and agencies report that eight children in the sample receive
                      non-Medicaid health care services in addition to Medicaid services.
                      Caregivers say that they pay for medications, medical care, or mental
                      health care themselves. A few agencies say children in foster care
                      receive counseling at a boys’ club, while another agency says the child in
                      its program receives counseling and therapy through school. Several
                      agencies point out that, in general, when a child needs health care
                      services not covered by Medicaid, the foster care agency will pay for the
                      services.

                      According to caregivers and agencies, nine children in the sample are
                      enrolled in some type of program that improves their access to health
                      care. These programs include early intervention and specialized day
                      care centers, which provide mental health care, speech therapy, or
                      physical or occupational therapy.
                      Most caregivers and agencies report that they have received training about
                      health problems that often affect children in foster care.
                      According to the Foster Care Program Placement Agreement, OCFS has
                      the responsibility to provide training opportunities for foster parents
                      and foster parents are responsible for attending training sessions.
                      Thirty-nine of the forty-nine caregivers say they have received training
                      about health issues relevant to children in foster care. This training
                      covers topics such as mental/behavioral health, obtaining certain
                      medical services, HIV/AIDS, and asthma. Thirty-three of the fifty
                      agencies say they have received similar training. Forty-four children in
                      the sample have either a caregiver or agency reporting that they
                      received this training. Twenty-eight children have both a caregiver and
                      an agency reporting that they received training.

                      According to caregivers and agencies, 36 of the 50 sampled children
                      have a variety of ongoing medical or mental health problems. These
                      problems include asthma, attention deficit disorder, post-traumatic
                      stress disorder, and depression.
                      Forty-three children in the sample are covered by New York’s Medicaid
                      payment system, called the per diem.
                      As explained in the background section of this report, the per diem is
                      paid to voluntary agencies in New York State for medical services
                      necessary to meet the needs of the children in their care. Forty-three of
                      the fifty children in the sample were covered by the per diem during the
                      study period. Of the remaining seven children, five were in direct care



    OEI-02-00-00362   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   FOSTER CARE: NEW YORK   10
     F 	I N D I N G       S


                         and therefore excluded from the per diem, and two were placed out-of-
                         State for a time during the study.

                         New York’s Office of Medicaid Management reports that the per diem
                         gives localities the flexibility to provide services within the community.
                         The agencies can have onsite medical staff or contract out, therefore
                         ensuring a sufficient number of providers. All the voluntary agencies
                         representing the children in the sample report that their agency has
                         health professionals on staff. These professionals include nurses,
                         mental health professionals, and physicians who often provide for the
                         children or act as a resource for caregivers. Fifteen agencies and eight
                         caregivers say that having a medical department or doctors onsite
                         improves access to health care services.

                         Thirty-four of the forty-three children covered by the per diem also had
                         Medicaid fee-for-service health care claims. The remaining nine
                         children covered by the per diem appear to have had all their health
                         care services paid for by the per diem. A child could have fee-for-service
                         claims while under the per diem for a variety of reasons. In addition to
                         the routine care generally paid for by the per diem, the child may need
                         care from a specialist or certain type of facility that is outside the per
                         diem. These services are paid under Medicaid fee-for-service. (See
                         Appendix A for a list of services that are inside or outside the per diem.)


Many caregivers are not informed about the Medicaid                                                   Caregivers say they are not taught
                                                                                                      how to navigate the Medicaid
program or the EPSDT, and they often do not receive
                                                                                                      system.
                 their children’s medical information

                         Caregivers report that they do not get information about Medicaid that
                         could help them access Medicaid services for their children. For
                         example:
                         o 	 Thirty-three caregivers say they did not receive telephone
                              numbers to call if they had questions about Medicaid.
                         o 	 Thirty-two caregivers say they did not receive an explanation as to
                              which services are covered under Medicaid.
                         o 	 Thirty caregivers say they did not receive a list of doctors who
                              accept Medicaid.
                         o 	 Twenty-three caregivers say they did not receive a schedule of the
                              doctor appointments children need.


       OEI-02-00-00362   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   FOSTER CARE: NEW YORK           11
F 	I N D I N G      S


                   o 	 Fourteen caregivers say they did not receive any of this
                        information. Five caregivers say they received all of this
                        information.
                   Not all caregivers and agencies know about the EPSDT.
                   Twenty-one caregivers have not heard of the EPSDT or any of the
                   program’s other names in New York, such as Child/Teen Health Plan or
                   Child Health Assurance Program. Twenty-four caregivers say they
                   have heard of the EPSDT (or one of its other names), but only one of
                   them reports that her child receives services under the program.
                   Twenty-seven agencies have not heard of the EPSDT. Twenty-two
                   agencies say they have heard of the program but only six of them report
                   that their children receive services under the program.
                   Caregivers often do not receive their child’s medical history.
                   Twenty caregivers say they did not receive any of their children’s
                   medical histories. Eight more say they did receive some history but not
                   all of the important information. In contrast, one agency reports that it
                   did not receive a medical history. Five agencies say they did not receive
                   all the important information about their children’s medical history.
                   According to the Foster Care Program Placement Agreement, OCFS has
                   the responsibility to provide foster parents with all pertinent
                   information concerning youth placed in their home.

                   Three caregivers believe the missing information adversely affected the
                   health care of their children. One caregiver says that she had no record
                   of her child’s immunizations so the child “had to start from scratch.”
                   Another caregiver says she would have been better able to care for her
                   child had she known the child came from an abusive home. The third
                   caregiver says it would have been helpful to know that her child was
                   born prematurely.




 OEI-02-00-00362   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   FOSTER CARE: NEW YORK   12
∆
   R E C O M M E N D A T I O N S




                   The children in our sample are receiving needed services, especially
                   preventive care. We believe that New York’s Medicaid payment system,
                   the per diem, likely facilitates the children’s access to health care
                   services. Nevertheless, we recommend that ACF and CMS work with
                   the New York State OCFS and Office of Medicaid Management to
                   further promote access to services by addressing potential obstacles,
                   including caregivers’ limited knowledge about the EPSDT and how to
                   navigate the Medicaid system. We also recommend that ACF help the
                   State ensure that the most complete medical histories are shared with
                   the children’s caregivers.
                   Agency Comments
                   We received comments from ACF and CMS. The full text of the
                   comments is included in Appendix D. ACF reports that it is working
                   with New York on our recommendation to promote the importance of
                   obtaining medical histories for children in foster care. ACF notes that a
                   Program Improvement Plan was developed in response to the New York
                   Child and Family Service Review conducted by ACF. This plan contains
                   action steps that address the gathering of medical information and the
                   physical and mental health needs of children served by the New York
                   State child welfare system. ACF says that it monitors progress of the
                   plan with quarterly reports.

                   CMS concurs with the recommendation that CMS work with New York
                   to further promote access to services. CMS states that regional staff
                   will work with the New York OCFS and Office of Medicaid Management
                   to ensure that the New York foster care staff is educated on Medicaid
                   and the EPSDT program services. CMS also mentions that it is
                   working with ACF to develop interagency multistate meetings.
                   Pursuant to CMS, these meetings will address access to Medicaid
                   services for children in foster care and facilitate communication between
                   State Medicaid directors and Child Welfare directors.




 OEI-02-00-00362   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   FOSTER CARE: NEW YORK   13
∆    A P P E N D I X                      ~      A




Services Inside and Outside the Medicaid Per Diem Rate
                 Service
Physician Administrative                                     In the Rate
Nurses                                                       In the Rate
Physician Specialists                                        In the Rate
Physicians                                                   In the Rate
Article 28 Freestanding Clinics                              In the Rate
Psychiatrists                                                In the Rate
Psychologists                                                In the Rate
Certified Social Workers                                     In the Rate
OMH Licensed Vol Clinics                                     In the Rate
OMRDD Licensed Vol Clinics                                   In the Rate
OASAS Licensed Clinics                                       In the Rate
Dentists                                                     In the Rate
Dental Freestanding Clinics                                  In the Rate
Prescription Drugs*                                          In the Rate
Non-Prescription Drugs*                                      In the Rate
Medical Supplies                                             In the Rate
Durable Medical Equipment                                    In the Rate
Home Health PCA/HHA/LPN/RN                                   In the Rate
Laboratory                                                   In the Rate
X-ray                                                        In the Rate
Transportation                                               In the Rate
Eye Care                                                     In the Rate
OT/PT Speech and Audiology                                   In the Rate


                         Service
Article 28 Outpatient Departments                            Out of Rate
Emergency Room                                               Out of Rate
School-Based Health Clinics                                  Out of Rate
Family Planning Clinics                                      Out of Rate
OMH Partial Hospital                                         Out of Rate
OMH Day Treatment                                            Out of Rate
OMH State Clinics                                            Out of Rate
OMR/OASAS State Operated Clinics                             Out of Rate
General Inpatient                                            Out of Rate
OMH Inpatient                                                Out of Rate
OMRDD Inpatient                                              Out of Rate
OASAS Inpatient                                              Out of Rate
Dental Outpatient Departments                                Out of Rate
Early Intervention                                           Out of Rate
School Supportive Health Services                            Out of Rate
Case Management                                              Out of Rate
*The per diem covers most prescription and non-prescription drugs.




    OEI-02-00-00362       NEW YORK FOSTER CARE CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S   14
∆      A P P E N D I X                       ~      B




Children's Demographic and Health Characteristics

The table below illustrates the demographic and health characteristics of the 50 children in the
sample, including the number of months they were in foster care from September 2000 through
October 2002. Placement setting refers to the type of foster care placement at the time of the
interviews.

                                             Agency or Caregiver Agency or Caregiver Reports              Months in Care
                   Age     Placement           Reports Child has     Child has Mental Health               During Study
  ID   Sex      (years)    Setting            Medical Problem(s)                  Problem(s)                      Period

  1    Male         16     Residential              Y                                      Y                   26
  2    Female       16     Family                   Y                                      Y                   26
  3    Male         17     Residential              N                                      Y                   26

  4    Male         11     Family                   Y                                      Y                   18

  5    Female       14     Family                   Y                                      N                   12

  6    Male          5     Family                   N                                      Y                   24

  7    Female        4     Family                   Y                                      Y                   26

  8    Male          7     Family                   N                                      N                   26

  9    Female        6     Family                   N                                      Y                   26

  10   Male          8     Family                   Y                                      Y                   26

  11   Male         15     Residential              N                                      Y                   13

  12   Female        5     Family                   N                                      Y                   26

  13   Male         18     Residential              N                                      Y                   26

  14   Male         13     Kinship                  N                                      N                   26

  15   Female        2     Family                   Y                                      N                   23

  16   Male         15     Family                   Y                                      Y                   26

  17   Male         16     Family                   Y                                      Y                   10

  18   Male          1     Kinship                  N                                      N                   10

  19   Female        6     Kinship                  Y                                      N                   26

  20   Male         17     Trial Discharge          Y                                      Y                   26

  21   Male         17     Kinship                  Y                                      Y                   19

  22   Male          6     Family                   N                                      Y                   26

  23   Male         10     Residential              Y                                      Y                   26

  24   Male          8     Residential              Y                                      Y                   10

  25   Female       10     Family                   N                                      N                   26




  OEI-02-00-00362         NEW YORK FOSTER CARE CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S                    15
A    P   P E N D          I X ~          B


Children's Demographic and Health Characteristics (continued)


                                                 Agency or Caregiver Agency or Caregiver Reports              Months in Care
                       Age     Placement           Reports Child has     Child has Mental Health               During Study
    ID   Sex        (years)    Setting            Medical Problem(s)                  Problem(s)                      Period

    26   Female         17     Family                   N                                      N                   26

    27   Female          9     Family                   N                                      N                   13

    28   Male            2     Family                   Y                                      N                   26

    29   Female          2     Family                   Y                                      N                   8

    30   Male           19     Residential              N                                      N                   26

    31   Female         11     Family                   N                                      Y                   26

    32   Male            7     Kinship                  Y                                      N                   26

    33   Female         11     Family                   N                                      N                   23

    34   Female          4     Family                   N                                      N                   26

    35   Female          5     Trial Discharge          N                                      N                   12

    36   Male            1     Family                   Y                                      N                   12

    37   Male            8     Kinship                  N                                      N                   25

    38   Female          4     Kinship                  Y                                      N                   26

    39   Female          4     Family                   Y                                      N                   26

    40   Female         20     Family                   Y                                      N                   26

    41   Male            7     Kinship                  Y                                      Y                   26

    42   Male            9     Family                   Y                                      Y                   26

    43   Female         11     Family                   N                                      N                   10

    44   Male            9     Family                   Y                                      Y                   26

    45   Male           15     Family                   N                                      N                   8

    46   Female         18     Kinship                  N                                      Y                   25

    47   Male           13     Residential              N                                      Y                   8

    48   Female         12     Kinship                  N                                      N                   26

    49   Male           14     Residential              N                                      Y                   10

    50   Female          6     Kinship                  Y                                      N                   26
    Source: New York State Office of Medicaid Management, January 2003




    OEI-02-00-00362           NEW YORK FOSTER CARE CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S                    16
∆     A P P E N D I X                    ~       C



    Comparison of Children in Sample to Population

    The table shows characteristics of children in the sample and of the population of
    children in New York foster care for at least 6 continuous months.

    Comparison of Children in Sample to Population
                                                Sample                                          Population
                                                    Percent of                                        Percent of
                                          Count       Total                                   Count      Total
    GENDER
    Male                                         28       56%                                          21,665    53%
    Female                                       22       44%                                          19,567    47%
                                 Total           50      100%                                          41,232   100%
    AGE
    0-2                                           5       10%                                           4,730    11%
    3-5                                           7       14%                                           5,679    14%
    6-9                                          13       26%                                           7,394    18%
    10-13                                         9       18%                                           8,343    20%
    14-17                                        12       24%                                          11,343    28%
    18+                                           4         8%                                          3,743     9%
                                 Total           50      100%                                          41,232   100%
    Source: New York State OCFS, 2002




OEI-02-00-00362        NEW YORK FOSTER CARE CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S                   17
∆   A P P E N D I X                 ~       D




OEI-02-00-00362   NEW YORK FOSTER CARE CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S   18
A    P   P E N D      I X ~    D      





    OEI-02-00-00362   NEW YORK FOSTER CARE CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S   19 

A    P   P E N D      I X ~    D      





    OEI-02-00-00362   NEW YORK FOSTER CARE CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S   20 

A    P   P E N D      I X ~    D      





    OEI-02-00-00362   NEW YORK FOSTER CARE CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S   21 

A    P   P E N D      I X ~    D      





    OEI-02-00-00362   NEW YORK FOSTER CARE CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S   22 

∆
   A C K N O W L E D G M E N T S



                   This report was prepared under the direction of Jodi Nudelman, Acting
                   Regional Inspector General for Evaluation and Inspections in the New
                   York regional office. Other principal Office of Evaluation and
                   Inspections staff who contributed include:

                   Nancy T. Harrison, Team Leader
                   Nicole Gillette, Lead Analyst

                   Laura Torres, Program Analyst

                   Thomas Zimmermann, Program Analyst
                   Linda Hall, Program Specialist
                   Elise Stein, Director, Public Health and Human Services Branch



                   Technical Assistance
                   Barbara Tedesco, Mathematical Statistician




 OEI-02-00-00362   NEW YORK FOSTER CARE CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S   23
